.,               . -
     Department of Health and Human Servqes
             OFFICE OF

        INSPECTOR GENERAL

OFFICE OF 
      INSPECTOR GENERA




              OEI- 09- 88- 01006

              EXECUTIVE SUMMAR 

PUROSE
This report estimates the amount Medicare paid for beneficiaries who underwent
outpatient upper gastrointestinal (GI) endoscopy or colonoscopy surgeries , known
collectively as GI endoscopies , that were determed to be medically unnecessary or
did not meet professionally recognzed standards of care.

BACKGROUN
Section 1154 of the Social Security Act authories the peer review organizations
(PROs) to (1) deny payment for questionable care and (2) review quality of care in
postacute and ambulatory settings. In Apri 1989 , PROs implemented 100 percent
preprocedure review of at least 10 non emergency procedures. The PROs
retrospectively review 5 percent of their preprocedure approvals each quarter.

Section 1842( a )(2)(B) of the Social Security Act requiresMedicare carrers to apply
safeguards against unnecessary utilzation of servces   furnshed by providers. " The
carrers are responsible for identifng providers , by locality and specialty, whose
utilation patterns are different from medically recognzed community standards and
norms. The carrers are also required to monitor claims data to develop profiles on
providers.

We recently completed an inspection in which we examined 360 Medicare outpatient
GI endoscopies performed in ambulatory surgical centers and hospital outpatient
departments. The independent medical review contractor found that , for those cases
with adequate documentation ,   23.   3 percent of the upper GI endoscopies and
 7 percent of the colonoscopies  were medically unnecessary. The contractor also
found that 5. 9 percent of the upper GI endoscopy patients and 3. 3 percent of the
colonoscopy patients received poor care. By reviewing the beneficiary histories and
claims obtained from the Medicare carrers and fiscal intermediaries , we determined
the payments for the unnecessary and poor quality GI endoscopies.

FIINGS
       Medicare spent approximately $45.3      milion in 1988 for medically   unnecessary
       GI endoscopies.

       Medicare spent almost $9. 5 millon in 1988 for poor care rendered to GI
       endoscopy patients.

RECOMMNDATION

The Health Care Financing Administration should reduce the incidence of payments
for unnecessary and poor quality GI endoscopies.
            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                   TABLE OF CONTENTS





EXECUTIV SUMY

BACKGROUN. . . . . . 
                                                                               . . . . . . 1




FINDINGS
                                                                        . . . . . . . . . . . . . . . . 3




   Medicare spent approxiately             $45.3 mion in 1988 for medicaly unnecessary

   GI endoscopies. . . . . . . . . .                                                                              . 3



   Medicare spent almost $9. 5 miion in 1988                 for poor care rendered to 

   endoscopy patients.        .......................................... 4


REC011NDATION ..........................................                                                           5


APPENDIX

                               OUTATINT SURGERY:
    MEICAR PAYMNT FOR UNCEARY AN POOR QUALIT
             GAS1ROINTIAL ENDOSCOPIE
                                     OEI-0100

PUROSE
This report estimates the amount Medicare paid for beneficiaries who underwent
outpatient upper gastrointestinal (GI) endoscopy or colonoscopy surgeries , known
collectively as gastrointestinal endoscopies , that were determed to be medically
unnecessary or did not meet professionally recognized standards of care.

BACKGROUN
Although Section 1862(a)(1)(A) of the Social Security Act states that no Medicare
payment may be made for servces that are not reasonable and necessary, the law
and regulations do not specifically define medical necessity or quality of care.
Determinations regarding medical necessity and quality of care have been based on
local community standards. To fil ths gap, durig the 1980s , many professional
organizations , such as the American Society for Gastrointestinal Endoscopy,
developed uniform guidelines for their members outlining medical necessity and
suggesting standards of care for their various procedures.


PRO Responsibilities

Prior to 1985 ,   the peer review organizations (PROs) were not responsible for
                                    Since that time , several legislative bils
reviewing outpatient quality of care.
expanded the PRO authority, including the Consolidated Omnibus' Reconciliation Act
(COBRA) of 1985 and the Sixh Omnibus Budget Reconciliation Act (SOBRA) of
1986. The COBRA authorized PROs to deny payment for questionable care while
SOBRA mandated PROs to review quality of care in postacute and ambulatory care
settings. In April 1989 , PROs implemented 100 percent preprocedure review of at
least 10 nonemergency inpatient or outpatient surgical procedures. The PROs were
given this authority under Section 9401 of Public Law 99- 272. At this time , neither
GI endoscopy procedure is included on the optional review list , but the PROs can
select the procedures based on historical data. In addition ,   the Health Care
Financing Administration (HCFA) requires the PROs to review retrospectively the
medical records for 5 percent of their preprocedure requests on a quarterly basis.

Under the upcoming fourth scope of work , which is scheduled for contract renewals
beginning October 1 , 1991 , HCF A has eliminated mandatory review of nonemergency
inpatient or outpatient surgical procedures. The PROs would be authorized to focus
their resources on surgical or nonsurgical procedures and other servces which appear
to be overutilized or substandard. The PROs will retrospectively review 3 percent of
their preprocedure approvals.

Medicare Carrer     Responsibilities

In addition to processing Medicare claims for payment , Section 1842(a)(2)(B) of the
Social Security Act requires Medicare carrers to apply " safeguards against
unnecessary utilization of servces furnished by providers. "   Carrer   responsibilities are
detailed in the Medicare Carrer s Manual (MCM). The carrers are responsible for
identifg providers , by locality and specialty, whose utilzation patterns are diferent
from medically recognized community standards and norms. The carrers are
required to monitor claims data to develop profies on providers and their specialty
groups. The carrers also     conduct studies to identif areas of special concern.


The HCF A periodically alerts Medicare fiscal agents of current abusive practices
through intermediary letters or carrier bulletins. In this way,   the carriers can refocus
their monitoring activities while the MCM is updated.

Prior Office of Inspector General Studies

We recently completed an inspection in which we examined Medicare outpatient
surgery performed in ambulatory surgical centers (ASCs) and hospital outpatient
departments (OPDs). In February 1991 , we released the medical outcome analysis           in
a fial report entitled " Outpatient Surgery-- Medical Necessity and Quality of Care
(OEI - 09-88- 01000).

The independent medical review contractor found that , for those cases with adequate
documentation , 23.3 percent of the upper GI endoscopies and 7. 7 percent of the
colonoscopies were medically unnecessary. As mentioned in the medical outcome
report , the most common reasons why the procedures were found' to be medically
unnecessary were (1) substantiation for the procedure was inadequate , e.g. , the
patient did not have a trial of medical therapy prior to the procedure
(2) symptoms did not justif the procedure , e. , the procedure was used as a routine
follow-up to a previously documented noncancerous condition.

The contractor also found that 5. 9 percent of the upper GI endoscopy patients and
3.3 percent of the colonoscopy patients received poor care. Some reasons why the
beneficiaries received poor care included the (1) untimely follow-up of a cancerous
condition or (2) use of a follow-up colonoscopy too soon after the initial procedure.


This management advisory report is limited to a discussion of the costs associated
with the medically unnecessary and poor quality G I endoscopies. The sampled
surgeries were completed before preprocedure review was implemented in
April 1989.

METIODOLOGY

Our random sample of 1 170 Medicare beneficiaries included 360 GI endoscopies-­
202 upper G I endoscopies and 158 colonoscopies. Half of the surgeries were
completed in ASCs , and the other half were completed in OPDs. The surgeries
were performed in the 10 States with the highest number of Medicare-certifed ASCs
in February 1988: Arona , Californa , Florida , Illiois , Louisiana , Maryland , North
Carolina , Ohio , Pennsylvania , and Texas. The surgeries were completed during the
fist quarter of calendar year 1988.



We collected the medical records from the physicians , ASCs , and OPDs. We used
an independent medical review contractor to review the cases. The contractor used
physician specialists to develop the procedure-specifc criteria and to review each
record for medical necessity, appropriateness of the outpatient setting, and quality of
care. In addition , we intervewed a sample of ASC and OPD gastroenterologists to
identify currently acceptable standards for medical necessity and quality of care.

We determned OPD and ASC payments by reviewing the beneficiary histories and
claims obtained from the Medicare carriers and fiscal intermediaries. For OPDs , the
payments represent the interim payments. These interi payments are subject to
adjustment based on the intermediary s audit of the hospital cost report for the fiscal
year in which the servces were rendered. For the GI endoscopies , our analysis
included the physicians ' fees , ASC prospective reimbursement , OPD facilty
payments , and specimen biopsies. We excluded offce visits from the cost data
because gastroenterologists are viewed as consultants rather than primary care
physicians.

In order to gain a national perspective ,we made two nonstatistical projections for
the data. First , we projected the 10 States ' quarterly costs to annual costs. Second
since the number of procedures in our sample represents 49 percent of the Medicare
procedures performed nationally, we calculated the national costs by dividing the
sampled costs by 0.49. This methodology assumes the 10 sampled States are
representative of the nation as a whole.



FIINGS
MEDICA SPENT         APPROXITELY            $45.3   MILON IN   1988   FOR
MEDICAY UNECESSAY GI ENDOSCOPIES.
In our sample , 56 of 344 GI endoscopies were deemed medically unnecessary by the
physician reviewers. In 1988 , Medicare could have saved at least a portion of
$45. 3 millon nationally for 16.3 percent medically unnecessary GI endoscopies-­
$31.55 millon for upper GI endoscopies and $13. 78 milion for colonoscopies. The
56 cases were composed of 44 upper GI endoscopies and 12 colonoscopies. Based
on this finding, Medicare could have denied payment under Section 1862 (a)(l)(A).
The cost projections for both procedures are included in tables 1 and 2 in the
appendix.

According to the medical reviewers , 93. 6 percent (189 of 202 cases) of the upper GI
endoscopies had adequate documentation for the determination of medical necessity.
The 23. 3 percent (44 of 189 cases) of upper GI endoscopies that were deemed
medically unnecessary were evenly divided between ASCs and OPDs.

According to the medical reviewers ,      98.   1 percent (155 of 158 cases) of the
colonoscopies had adequate documentation for the evaluation of medical necessity.
The 7. 7 percent (12 of 155 cases) of the colonoscopies that were deemed medically
unnecessary were almost evenly divided between ASCs and OPDs.

MEDICA SPENT            ALOST     $9.5   MILlON IN         1988   FOR POOR
RENDERED TO GI ENDOSCOPY PA11NT.

In our sample , 16 of 341 GI endoscopy beneficiaries received poor care. In 1988
Medicare could have saved at least a portion of $9. 5 millon nationally for
  7 percent of poor care rendered to GI endoscopy patients-- $4. 9 millon for upper
GI endoscopies and $4. 6 milion for colonoscopies. The 16 cases were composed of
11 upper GI endoscopies and 5 colonoscopies. The cost projections for poor care
rendered to GI endoscopy patients are included in tables 3 and 4 in the appendix.

Accordig to the medical reviewers , 92. 6 percent (187 of 202 cases) of the upper GI
endoscopies had adequate documentation for the evaluation of quality of care. The
reviewers determed that 5. 9 percent (11 of 187 cases) of the beneficiaries received
poor care-- 7 ASC and 4 OPD beneficiaries.

According to the reviewers , 97. 5 percent (154 of 158 cases) of the colonoscopies had
adequate documentation for the evaluation of quality of care. Of these cases
3.3 percent (5 of 154 cases) of the beneficiaries received poor care-- 2 ASC and
3 OPD cases.

RECOMMATION
mE HCFA SHOUL REDUCE mE INCIDENCE OF PAYMENT FOR
UNECESSAY AN POOR QUAL GI ENDOSCOPIES.
Ths recommendation   could be accomplished through a combination of efforts by
both PROs and carrers. Both PROs and carrers can target for review those
providers whose practice profies indicate a higher than average likelihood of
unnecessary or poor quality care.



In addition ,   HCF A could issue a carrer bulletin to reemphasize medical and
postpayment review of upper GI endoscopies and            colonoscopies. Among the
procedures included on the     postpayment alert list in MCM Section 7514(E), carriers
should monitor (1) the " use of endoscopic procedures in lieu of less costly and
medically adequate x-rays " and (2) colonoscopies that are " not indicated by diagnosis
or medical documentation. " ay combining several methods , HCF A could save at
least a portion of $54. 8   milion annually for medically unnecessary and poor quality
G I endoscopies.
                       APPENIX: COST PROJECTONS

The tables on the following pages   represent the cost savigs for medically
unnecessary upper GI endoscopies and     colonoscopies (tables 1 and 2) and poor
quality upper GI endoscopies and colonoscopies (tables 3 and 4).
TABLE 1:        ESTIMATED SAVINGS FOR MEDICALLY UNNECESSARY UPPER GASTROINTESTINAL ENDOSCOPY


                                            MEDICALL Y   PERCENT       AVERAGE         AVERAGE                         ESTIMATED
STATE                 SITE      SAMPLE     UNNECESSARY MED I CALL     QUARTERLY         ANNUAL        ADJUSTED           ANNUAL
                                 CASES        CASES    UNNECESSARY    PAYMENTS         PAYMENTS       UNIVERSE          SAVINGS

Arizona	              OPD                                  20. 00%       $488.         $1 , 955. 16        927             $362 486.
                      ASC                                      00%         $0.              $0.                                    $0.
California	           OPD                                  31. 25%       $626. 77 *        507.            731             $515 439.
                      ASC                                   18. 18%      $592.             369.           1781             $767 280.
Florida	              OPD                                  40. 00%       $765.             061.           6849              386 573.
                      ASC                                  50. 00%       $500.             003.                             $21, 039.
III i no i 	          OPD                                      00%         $0.              $0.                                    $0.
                      ASC                                      00%         $0.              $0.                                    $0.
Loui s i ana	         OPD                                  16. 67%      $4 19 . 28     $1 , 677. 12       1543             $431 299.
                      ASC                                  20. 00%      $325.              302.                                   594.
Maryland	             OPD                                      00%         $0.              $0.           1493                     $0.
                      ASC                                  25 . 00%       211.18           844.                             $12 , 111. 80
North Caro      l i na OPD                                 14 . 29%     $619.              479.           1916             $678 559.
                      ASC                                      00%        $0.               $0.                                    $0.
Ohi 0	                OPD                                  33. 33%      $507. 38 *         029.           2385              075 645.
                      ASC                                  30. 00%      $603.             413 .                             $43 448.
pennsyl vani a	       OPD                                  21. 43%      $642.              569.          3888               140 843.
                      ASC                                  42. 86%      $649. 44 *         597.                             $38 038.
Texas	                OPD                                   9 . 09%     $676.             706.           3960             $974 275.
                      ASC                                  15 . 38%     $680.             723.                                    285.

                      TOTALS:       189	                     N/A         310. 19      $37 240.          25681          $15 461 923.


                                                                                                                 ESTIMATED NATIONAL
                                 Cases had inadequate paid information                                           ANNUAL SA V I NGS:
                                 to be included in calculations.
                                                                                                                      $31 554   945.
TABLE 2:        ESTIMATED SAVINGS FOR MEDICALLY UNNECESSARY COLONOSCOPIES


                                           MED I CALLY   PERCENT        AVERAGE         AVERAGE                       ESTIMATED
STATE               SITE       SAMPLE     UNNECESSARY MED I CALLY      QUARTERLY         ANNUAL    ADJUSTED              ANNUAL
                                CASES        CASES     UNNECESSARY     PAYMENTS         PAYMENTS   UN I VERSE           SAVINGS

Ar i zona	          OPD                                     0 . 00%          $0.            $0.                                   $0.
                    ASC                                     0 . 00%          $0.            $0.                                   $0.
Cal ifornia	        OPD                                        25%         267.            069.          423              $134 032.
                    ASC                                    1 0 . 00%      $764.            059.         1141              $349 136.
Florida	            OPD                                    18. 18%      $1 , 086. 14       344.         4681                697 615.
                    ASC                                     0 . 00%          $0.            $0.                                   $0.
III i no i 	        OPD                                     0 . 00%          $0.            $0.                                   $0.
                    ASC                                     0 . 00%          $0.            $0.                                   $0.
Loui s i ana	       OPD                                     0 . 00%          $0.            $0.          566                      $0.
                    ASC                                     0 . 00%          $0.            $0.                                   $0.
Maryland	           OPD                                     0 . 00%          $0.            $0.         1193                      $0.
                    ASC                                        00%           $0.            $0.                                   $0.
North Carol ina OPD                                        25 . 00%         533.           134.          576              $883 359.
                ASC                                         0 . 00%          $0.            $0.                                   $0.
ohio	               OPD                                     0 . 00%          $0.            $0.         1429                      $0.
                    ASC                                     0 . 00%          $0.            $0.                                   $0.
pennsyl vani a	     OPD                                    18. 18%        $736.            945.        3126             $1, 673 830.
                    ASC                                    16. 67%        $765.            060.                             $13 772.
Texas	              OPD                                        00%           $0.            $0.         1517                      $0.
                    ASC                                     0 . 00%          $0.            $0.                                   $0.

                    TOTALS:        155	                      N/A            153.       $24 614.       14879                751 747.


                                                                                                                EST I MA TED NA T IONAL
                                                                                                                ANNUAL SA V I NGS :

                                                                                                                      $13 779 076.
TABLE 3:        ESTIMATED SAVINGS FOR POOR QUALITY UPPER GASTROINTESTINAL ENDOSCOPY



                                           POOR       PERCENT         AVERAGE       AVERAGE                    ESTIMATED
STATE                SITE      SAMPLE     QUAL I TV    POOR          QUARTERLY       ANNUAL    ADJUSTED          ANNUAL
                                CASES      CASES      QUAL I TY      PAYMENTS       PAYMENTS   UNIVERSE         SAVINGS

Arizona	            OPD                                    0 . 00%        $0.           $0.         927                    $0.
                    ASC                                  33. 33%        $735.          943.                               813 .

California	         OPD                                      13%        $452.           810.        731            $41, 368.
                    ASC                                      03%        $625.       $2, 501.       1781           $135 030.
Florida	            OPD                                      00%          $0.           $0.        6849                    $0.
                    ASC                                      00%          $0.           $0.                                $0.
III i no i 	        OPD                                      00%          $0.           $0.                                $0.
                    ASC                                      00%          $0.           $0.                                $0.
Loui s i ana	       OPD                                    0 . 00%        $0.           $0.        1543                    $0.
                    ASC                                        00%        $0.           $0.                                $0.
Maryl and	          OPD                                       00%         $0.           $0.        1493                    $0.
                    ASC                                  25 . 00%       $743.          974.                               435.
North Carol ina OPD                                        0 . 00%        $0.           $0.        1916                    $0.
                ASC                                       12. 50%       $392.          569.                               530.
Ohio	               OPD                                   11.11%          $0. 00        $0.        2385                    $0.
                    ASC                                    0 . 00%        $0.           $0.                                $0.
pennsyl vani a	     OPD                                    0 . 00%        $0.           $0.        3888                    $0.
                    ASC                                        69%        $0. 00        $0.                                $0.
Texas	              OPD                                   18. 18%      $766.           065 .       3960            207 001.
                    ASC                                   15. 38%      $813.           252.                               505.

                    TOTALS:        187	                     N/A          529.      $18 117.       25681            411 , 684 .


                                                                                                          ESTIMATED NATIONAL
                                 Cases had inadequate paid information                                    ANNUAL SAVINGS:
                                 to be included in calculations.
                                                                                                                   921    804.
TABLE 4:         ESTIMATED SAVINGS FOR POOR QUALITY COLONOSCOPIES


                                             POOR       PERCENT         AVERAGE         AVERAGE                      ESTIMATED

STATE                SITE       SAMPLE      QUAL I TY    POOR          QUARTERL Y        ANNUAL    ADJUSTED
            ANNUAL

                                 CASES       CASES      QUALITY        PAYMENTS         PAYMENTS   UNIVERSE
           SAVINGS


Arizona	             OPD                                    0 . 00%          $0.            $0.                                   $0.
                     ASC                                    0 . 00%          $0.            $0.                                   $0.
California	          OPD                                         00%         $0.             $0.        423                       $0.
                     ASC                                         33%    $1 , 153. 14    $4, 612.       1141              $175 431.
Fl or i da	          OPD                                    0 . 00%          $0.            $0.        4681                        $0.
                     ASC                                         00%         $0.            $0.                                    $0.
I II i no i s	       OPD                                    0 . 00%          $0.            $0.                                    $0.
                     ASC                                         00%         $0.            $0.                                    $0.
Loui s i ana	        OPD                                    0 . 00%          $0.            $0.         566                        $0.
                     ASC                                    0 . 00%          $0.            $0.                                    $0.
Maryland	            OPD                                    0 . 00%          $0.            $0.        1193                        $0.
                     ASC                                         00%         $0.            $0.                                    $0.
North Carol ina OPD                                       25 . 00%          533.           134.         576              $883 359.
                ASC                                            00%           $0.            $0.                                    $0.
Ohio	                OPD                                   16. 67%        $640.            563.        1429              $610 649.
                     ASC                                         00%        $0.             $0.                                    $0.
Pennsyl vani a	      OPD                                         33%      $552.            209.        3126              $575 600.
                     ASC             12 .                        33%      $905 .           620.                                   145.
Texas	               OPD                                         00%         $0.            $0.        1517                       $0.
                     ASC                                         00%         $0.            $0.                                   $0.

                     TOTALS:        154	                        N/A     $4 , 785. 14   $19 140.       14879               253 186.


                                                                                                               EST I MA TED NA T IONAl
                                                                                                               ANNUAL SAVINGS:

                                                                                                                          598 338.
